Appendix A

United States v. Mendoza
United States Court of Appeals for the Fifth Circuit
June 29, 2020, Filed
No. 19-40834 Summary Calendar
Reporter
811 Fed. Appx. 270 *; 2020 U.S. App. LEXIS 20331 **; 2020 WL 3524832

UNITED STATES OF AMERICA, Plaintiff-Appellee v. CRISTIAN MENDOZA, Defendant-Appellant

Notice: PLEASE REFER TO FEDERAL RULES OF APPELLATE PROCEDURE RULE 32.1
GOVERNING THE CITATION TO UNPUBLISHED OPINIONS.

Prior History: [**1] Appeal from the United States District Court for the Eastern District of Texas.
USDC No. 4:18-CR-46-16.
United States v. Billy, 807 Fed. Appx. 413, 2020 U.S. App. LEXIS 18617 (5th Cir. Tex., June 5, 2020)

Disposition: AFFIRMED.

Core Terms
guidelines, imprisonment, ineffective, Sentencing, quotation

Counsel: For United States of America, Plaintiff - Appellee: Bradley Elliot Visosky, Assistant U.S.
Attorney, Ernest Gonzalez, Assistant U.S. Attorney, U.S. Attorney's Office, Eastern District of Texas,
Plano, TX.
For Cristian Mendoza, Defendant - Appellant: John Andrew Kuchera, Waco, TX.

811 Fed. Appx. 270, *270; 2020 U.S. App. LEXIS 20331, **1

Judges: Before SMITH, DENNIS, and DUNCAN, Circuit Judges.

Opinion
[*270] PER CURIAM:*
Cristian Mendoza pleaded guilty, pursuant to a plea agreement, to conspiracy to possess with intent to
manufacture and distribute 500 grams or more of methamphetamine and was sentenced 420 months of
imprisonment, followed by five years of supervised release. He appeals, asserting that his guilty plea was
not knowing and voluntary because he pleaded guilty to an offense for which he was certain to receive a
guidelines range of life imprisonment despite the magistrate judge advising him that his guidelines range
would not be determined until the PSR was prepared. Mendoza therefore contends that he was not aware
of the consequences of his guilty plea and that had he known that he faced a guidelines range of life
imprisonment he would not [**2] have pleaded guilty.
Because Mendoza did not raise this issue in the district court, we review for plain error only. See United
States v. Alvarado-Casas, 715 F.3d 945, 953 (5th Cir. 2013). The record of Mendoza's rearraignment
reflects that he acknowledged that he understood the consequences of his plea — including the maximum
sentence that could be imposed and the operation of the Sentencing Guidelines — and that he was
pleading voluntarily, that no one had threatened him or forced him to plead guilty, and that no one had
made any [*271] promises other than what was provided in the plea agreement. Mendoza's "solemn
declarations in open court . . . carry a strong presumption of verity." United States v. Palmer, 456 F.3d
484, 491 (5th Cir. 2006) (internal quotation marks, brackets, and citations omitted). Contrary to
Mendoza's assertion, he did not plead guilty to an offense for which he was certain to receive a guidelines
range of life imprisonment. To the extent Mendoza argues that the plea agreement lacked consideration,
the record reflects that he did, indeed, receive consideration for his plea. Mendoza has not shown any
error, plain or otherwise, with respect to the validity of his plea.
Mendoza also asserts that his trial counsel was ineffective for failing to object to the denial of an
acceptance of responsibility [**3] reduction. Mendoza did not raise this claim in the district court, and we
conclude that this is not one of the "rare cases" in which the record is sufficiently developed to allow
consideration of an ineffective assistance of counsel claim on direct appeal. United States v. Isgar, 739
F.3d 829, 841 (5th Cir. 2014) (internal quotation marks and citation omitted). Thus, we decline to
consider Mendoza's ineffective assistance claim without prejudice to his right to seek collateral review.
See id.
AFFIRMED.
End of Document

* Pursuant

to 5TH CIR. R. 47.5, the court has determined that this opinion should not be published and is not precedent except under the
limited circumstances set forth in 5TH CIR. R. 47.5.4.

Page 2 of 2

